WAIVER

SUPREME COURT OF THE UNITED STATES
20-5800

Sore gy Ber Ny de WS ics SOE TS Se
Robert L. Rose A Lynn Guyer, Warden, et al.
(Respondent)

 

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Please check the appropriate boxes:
f=] Please enter my appearance as Counsel of Record for all respondents.

[] There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

f=} I am a member of the Bar of the Supreme Court of the United States.
() I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.

j “

Signature
ne 10/21/2020
Matthew T. Cochenour
= Mr OMs. (Mrs. (J Miss
= State of Montana - Department of Justice iy

215 North Sanders
Neen ne alate meets eceeerreesteneeserpreieep neu

City & State Helena, MT Zip 59620
406-444-2026 . mcochenour2@mt.gov
Berea cacietnieiaeradelickdatemsecias LOOM

(Type or print) Name

Fir

Add

Pho
A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER

IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: David F. Ness
